BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that the original
and 2 copies of the foregoing Motion by First Liberty
Institute for Leave to File Brief as Amicus Curiae and
Brief as Amicus Curiae in Support of Applicant's
Emergency Application for Writ of Injunction in No.
20A87 The Roman Catholic Diocese of Brooklyn, New
York v. Andrew M . Cuomo, Governor of New York was
sent via Next Day Service to the U.S. Supreme Court,
and 3 copies were sent via Next Day Service and email to the following parties listed below, this 17th day
of November, 2020:
Randy Michael Mastro
Gibson, Dunn & Crutcher LLP
200 Park Avenue, 48th Floor
New York, NY 10166
(212) 351-4000
rmastro@gibsondunn.com

Counsel for Applicants

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

Letitia James
Attorney General of the State of New York
Barbara D. Underwood
Solicitor General of the State of New York
Brian D. Ginsburg
Assistant Solicitor General
Seth J. Farber
Assistant Attorney General
New York State Office of the Attorney General
Division of Appeals & Opinions
23rd Floor
28 Liberty Street
New York, NY 10005
Letitia.james@ag.ny.gov
Barbara. underwood@ag.ny.gov
Brian.ginsburg@ag.ny.gov
Seth.farber@ag.ny.gov
Counsel for Respondent
Kelly J. Shackelford
Counsel of Record
Hiram S. Sasser, III
Michael Berry
Stephanie N. Taub
Lea E. Patterson
First Liberty Institute
2001 West Plano Parkway
Suite 1600
Plano, TX 75075
(972) 941-4444
kshackelford@firstliberty.org
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 17, 2020.

DonnaJ. Wo f
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date: ,{CIV),Yi

k

I~

<:/(tv f2 /j~
1

Notary Public
[seal]

JOHN 0. GALLAGHER
Noto: y Public, State of Ohio
My Commission Expires
r·ebruary 1.1, 2,:!'.11

